Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




       QUESTIONABLE
    BILLING PATTERNS OF
  PORTABLE X-RAY SUPPLIERS




                    Daniel R. Levinson
                     Inspector General

                      December 2011
                     OEI-12-10-00190
   E X E C U T I V E                                      S U M M A R Y


                  OBJECTIVES
                          1. To identify portable x-ray suppliers with questionable billing
                             patterns that may be associated with inappropriate Medicare
                             payments.
                          2. To identify claims for portable x-ray services that may warrant
                             further review.


                  BACKGROUND
                  Medicare paid portable x-ray suppliers approximately $225 million
                  under the Part B benefit in 2009 for x-rays of the extremities, pelvis,
                  spine, skull, chest, and abdomen. Portable x-ray suppliers provide
                  diagnostic imaging services at patients’ locations—most often
                  residences, including private homes and group living facilities, such as
                  nursing homes—rather than in a traditional clinical setting, such as a
                  doctor’s office or hospital. Medicare pays portable suppliers separately
                  for up to four components of the service: transporting the equipment to
                  the beneficiary’s location, setting it up for use, administering the test,
                  and interpreting the results. Eighty percent of the amount Medicare
                  paid to portable suppliers in 2009 reimbursed them for transporting and
                  setting up the x-ray equipment.
                  Federal regulations stipulate that portable x-rays must be ordered by a
                  licensed medical doctor or doctor of osteopathy who is treating the
                  beneficiary for a specific medical problem and who uses the results of
                  the x-ray in managing it. The order must also state the need for
                  portable services.
                  Medicare pays for the full transportation component once for each trip
                  to a particular location. For example, if a supplier furnishes chest
                  x-rays to three patients at one nursing home during a single trip,
                  Medicare pays one-third the full transportation component rate for each
                  patient. While it pays the full rate only once per trip, Medicare pays
                  that full rate again for each return trip to a facility on a particular day.
                  We used Medicare claims data to assess portable x-ray suppliers on
                  eight characteristics we developed that describe questionable billing
                  patterns: (1) portable services ordered by nonphysicians, (2) no recent
                  contact between beneficiary and ordering provider, (3) same-day
                  services in multiple settings, (4) billing for return trips, (5) portable
                  x-rays per beneficiary, (6) beneficiary contact with multiple portable


OEI-12-10-00190   Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   i
E   X   E C     U T   I     V      E            S      U M            M         A      R Y


                          suppliers, (7) beneficiary use of stationary x-ray services, and
                          (8) beneficiary DME utilization. We also merged these characteristics
                          into a combined score for each supplier describing its overall billing
                          pattern. We then identified thresholds for each characteristic and the
                          combined score, which, if exceeded by a supplier, signified questionable
                          billing. In addition, we analyzed claims data to determine the total
                          amount Medicare paid for portable services ordered by nonphysicians
                          and for apparent return trips to facilities.


                          FINDINGS
                          Twenty portable x-ray suppliers exhibited questionable billing
                          patterns. We identified 20 suppliers that exceeded thresholds on at
                          least 2 of the characteristics of questionable billing we developed and
                          exceeded the threshold for the combined score. Thirteen of these
                          suppliers were located in the Miami, Florida, area.
                          Medicare paid portable x-ray suppliers approximately $12.8 million
                          for return trips to nursing facilities. As a typical example, one supplier
                          submitted a claim for the full transportation component for each of two
                          beneficiaries on a particular day (rather than one-half of the full
                          transportation component for two beneficiaries on a particular day) and
                          each claim was paid at the full rate. However, data show that these two
                          beneficiaries were located in the same nursing home on that date.
                          Claims data do not provide sufficient information to determine whether
                          the supplier billed correctly for two separate trips to the facility or
                          whether the supplier administered tests to the two beneficiaries during
                          a single trip and incorrectly claimed full reimbursement of the
                          transportation component for each beneficiary.
                          Medicare paid at least $6.6 million for portable x-ray services that
                          were ordered by nonphysicians and therefore not covered. Nurse
                          practitioners ordered $4.3 million of these services, while physician
                          assistants and podiatrists ordered $1 million and $900,000, respectively.
                          Registered nurses, chiropractors, and other medical professionals
                          accounted for the remainder. Medicare paid an additional $5.9 million
                          for services for which we could not determine the credentials of the
                          ordering providers.




    OEI-12-10-00190       Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   ii
E   X   E C     U T   I     V      E            S      U M            M         A      R Y



                          RECOMMENDATIONS
                          Portable x-rays constitute a small portion of overall Medicare payments
                          for diagnostic imaging services, but the questionable claims patterns we
                          found raise concerns about the integrity of payments to certain
                          suppliers. Furthermore, payments for portable services ordered by
                          nonphysicians clearly violate Federal regulations and should be
                          recovered. Lastly, payments for return trips to facilities, while not
                          necessarily inappropriate, may represent an additional opportunity for
                          program savings. Therefore, we recommend that CMS:
                          Take appropriate action on portable x-ray suppliers referred by the
                          Office of Inspector General.
                          Establish a process to periodically identify portable x-ray suppliers
                          that merit greater scrutiny and follow up as appropriate.
                          Determine what portion of the $12.8 million it paid for return trips in
                          2009 actually reimbursed suppliers for incorrectly billed
                          transportation component claims and collect overpayments where
                          appropriate.
                          Collect the $6.6 million in overpayments for portable x-ray services
                          rendered in 2009 that were ordered by nonphysicians.
                          Implement procedures to ensure that it pays for portable x-ray
                          services only when ordered by a physician and establish
                          appropriate controls.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our recommendations. CMS stated that since the
                          draft report was issued, it has embarked on a new fraud prevention
                          initiative to help identify suspect fee-for-service claims, including the
                          kinds of questionable billing described in this report. CMS also stated
                          that it is leveraging internal data and publicly available information to
                          strengthen its provider-screening process. CMS further indicated that it
                          is revising the Medicare Benefit Policy Manual to be consistent with the
                          regulations that would preclude Medicare from paying for portable x-ray
                          services that are not ordered by a licensed medical doctor or doctor of
                          osteopathy.
                          For the full text of CMS’s comments, see Appendix D.



    OEI-12-10-00190       Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   iii
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Twenty portable x-ray suppliers exhibited questionable billing
                    patterns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Medicare paid portable x-ray suppliers approximately
                    $12.8 million for return trips to nursing facilities . . . . . . . . . . . . . 12

                    Medicare paid at least $6.6 million for portable x-ray services
                    that were ordered by nonphysicians and therefore not covered . . 12


         RECOMMENDATIONS ..................................                                                              14
                    Agency Comments and Office of Inspector General Response . . . . 16

         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    A: Detailed Methodology for Evaluating Questionable Claims
                       Patterns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                    B: Distributions of Characteristics and Combined Score With
                       Related Thresholds. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            22


                    C: Billing Patterns of the 20 Selected Suppliers . . . . . . . . . . . . . . 23

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              24


         ACKNOWLEDGMENTS .................................. .                                                            28
   I N T R O D U C T I O N


                  OBJECTIVES
                          1. To identify portable x-ray suppliers with questionable billing
                             patterns that may be associated with inappropriate Medicare
                             payments. 1
                          2. To identify claims for portable x-ray services that may warrant
                             further review.


                  BACKGROUND
                  Medicare paid portable x-ray suppliers approximately $225 million
                  under the Part B benefit for x-rays rendered in 2009. Portable x-ray
                  suppliers provide diagnostic imaging services at patients’ locations—
                  most often residences, including private homes and group living
                  facilities, such as nursing homes—rather than in a traditional clinical
                  setting, such as a doctor’s office or hospital. The supplier transports
                  mobile diagnostic imaging equipment to the patient’s location, sets up
                  the equipment, and administers the test onsite. The supplier may
                  interpret the results itself or it may provide the results to an outside
                  physician for interpretation.
                  Only 20 percent of 2009 Medicare payments to portable x-ray suppliers,
                  $44 million, was for administering the test and interpreting the results,
                  services for which portable suppliers are paid the same rates as
                  stationary x-ray providers. The remaining 80 percent, $181 million,
                  reimbursed suppliers for transporting the equipment to the beneficiary’s
                  location and setting it up for use (see Figure 1). On average, Medicare
                  paid approximately $17 for administration and interpretation and $80
                  for transportation and setup of each portable x-ray in 2009, a
                  substantial premium over the cost of the stationary service.
                  Nevertheless, to the extent beneficiaries would otherwise require
                  medical transportation to a stationary x-ray provider, portable x-rays
                  may represent a cost savings to Medicare. If a portable x-ray patient
                  had qualified for and received nonemergency ambulance transportation
                  to a stationary provider instead of receiving the portable service,

                      1 Payments (also known as reimbursed amounts) refer to the amount paid for a covered
                  service after the deductible and coinsurance amounts have been deducted. Centers for
                  Medicare & Medicaid (CMS), Glossary. Accessed at
                  http://www.cms.gov/apps/glossary/search.asp?Term=payment&Language=English on
                  May 16, 2011.




OEI-12-10-00190   Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   1
I   N T    R O        D   U      C T           I     O       N


                              Medicare would have paid the same $17 to the stationary provider for
                              administration and interpretation, but $119 (on average) to the
                              ambulance company for transportation.2

                                                          2009 Payments to Portable X-ray Suppliers for X-rays,
        FIGURE 1
                                                                            by Component
Most payments to
   portable x-ray
 suppliers are for
 transporting the
                                                                                                                  Administration and
      equipment.                                                                                                    interpretation
                                                                                                                         20%




                                                                                                                           Setup of equipment
                                                                                                                                  10%

                                                                                    Transportation of
                                                                                       equipment
                                                                                         70%




                              Source: Office of Inspector General (OIG) analysis of 2009 Medicare National Claims History weekly carrier data,
                              2011.

                              Medicare coverage of portable x-ray services is governed by Federal
                              laws and regulations and CMS policy. The Code of Federal Regulations
                              (CFR) provides licensing, registration, staffing, and safety requirements
                              for portable x-ray suppliers. 3 In particular, 42 CFR § 486.106 requires
                              that portable x-rays be ordered by a physician, defined by that
                              regulation as a licensed medical doctor (MD) or doctor of osteopathy
                              (DO). The order must specify, in writing, both the reason for the x-ray
                              service and the need for portable services. Portable x-rays, like all
                              diagnostic tests, also “must be ordered by the physician who is treating
                              the beneficiary … and who uses the results in the management of the
                              beneficiary’s specific medical problem.” 4 The Medicare Benefit Policy
                              Manual limits reimbursable portable x-rays to those of the extremities,
                              pelvis, spine, skull, chest, and abdomen (collectively referred to
                              hereafter as “covered x-rays”). 5 Portable x-ray suppliers may also


                                  2 OIG analysis of 2009 Medicare National Claims History weekly carrier data, 2010.
                                  3 Applicable regulations are found at 42 CFR § 486.100 through 42 CFR § 486.110.
                                  4 42 CFR § 410.32(a).
                                  5 CMS, Medicare Benefit                    Policy Manual, Pub. No. 100-02, ch. 15, § 80.4.3.



    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S              2
I   N T    R O        D   U      C T           I     O       N


                              furnish electrocardiograms and mammograms, 6 though these services
                              accounted for less than 1 percent of portable suppliers’ Medicare
                              payments for services rendered in 2009.7
                              Billing Procedures for Portable X-Ray Services
                              The Medicare Claims Processing Manual separates portable x-rays into
                              as many as four components for billing and payment purposes. 8 As with
                              all diagnostic imaging tests, Medicare pays separately for administering
                              the portable x-ray (the technical component) and interpreting the
                              results (the professional component). For portable x-rays, Medicare also
                              pays separately for bringing the equipment to the beneficiary’s location
                              (the transportation component) and preparing it for use (the setup
                              component).
                              Portable x-ray suppliers bill the technical and professional components
                              in the same manner as other diagnostic imaging providers. To bill for
                              the professional or technical component, the supplier submits a billing
                              code to Medicare that identifies the test along with a modifier that
                              specifies which component was furnished (modifier TC for the technical
                              component or modifier 26 for the professional component). 9 If the
                              supplier furnishes both the technical and professional components
                              (referred to as a global service), it submits a code with neither
                              modifier.10
                              The setup and transportation components pertain solely to portable
                              services. To bill for the setup component, the supplier submits one unit
                              of billing code Q0092 for each imaging procedure furnished to the
                              beneficiary (e.g., if the supplier furnishes a chest x-ray and a wrist
                              x-ray, the supplier bills two units of Q0092). 11 To bill for the
                              transportation component, the supplier submits a billing code and
                              modifier that, taken together, specify the number of patients to whom
                              the supplier furnished a portable x-ray during a single trip to a
                              particular location. If the supplier used the equipment for one patient
                              during the trip, the supplier bills code R0070 for the transportation
                              component. If the supplier used the equipment for more than one

                                  6 CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, §§ 80.4.3 and 80.4.5.
                                  7 OIG analysis of 2009 Medicare National Claims History weekly carrier data, 2010.
                                  8 CMS,       Medicare Claims Processing Manual, Pub. No. 100-04, ch. 13, § 90.
                                  9 CMS,
                                     Medicare Claims Processing Manual, Pub. No. 100-04, ch. 23, Addendum –
                              MPFSDB Record Layouts, 2008 File Layout and 2009 File Layout, Field #5.
                                  10 Ibid.
                                  11 CMS,          Medicare Claims Processing Manual, Pub. No. 100-04, ch.13, § 90.4.



    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   3
I   N T    R O        D   U      C T           I     O       N


                              patient during the trip, it bills code R0075 for each patient. The
                              supplier also attaches a modifier that further specifies the total number
                              of patients seen at the location during the trip (modifier UN, UP, UQ,
                              UR, or US for two, three, four, five, or six or more patients,
                              respectively). 12
                              No modifier or code exists to indicate when a supplier makes a return
                              trip to a particular location on a given day, which creates ambiguity in
                              the claims data. For example, a supplier might bill R0070 for each of
                              two beneficiaries known to be at the same location on a given day. This
                              could represent the correct billing of the transportation component for
                              two separate trips to that location or the miscoding of a single trip
                              during which the supplier saw both beneficiaries.
                              Payment for Portable X-Ray Services
                              The Medicare Physician Fee Schedule establishes payment rates for the
                              technical and professional components of diagnostic imaging services.
                              Medicare pays portable x-ray suppliers the same rates for these
                              components as it does other diagnostic imaging providers. The fee
                              schedule also establishes the payment rate for the setup component.
                              Each Medicare claims payment contractor determines the
                              transportation component rate for its jurisdiction based on instructions
                              in the Medicare Claims Processing Manual.
                              Medicare pays each jurisdiction’s full transportation rate for R0070 and
                              a prorated portion of the full rate for R0075 based on the modifier
                              submitted. For example, Medicare pays one-fourth the full rate for each
                              instance of R0075 with modifier UQ (four patients). As shown in
                              Table 1, Medicare pays more for the transportation and setup
                              components than it does for the professional and technical components
                              of any of the three diagnostic imaging tests for which portable x-ray
                              suppliers most commonly bill.13 This difference is most substantial
                              when a portable x-ray supplier sees only one patient during a trip to a
                              location. In that case, Medicare pays at least four times as much for the
                              transportation and setup of the equipment as it does for the technical
                              and professional components combined.


                                  12 If a supplier sees more than six patients in a single trip to a location, it bills R0075
                              with the US modifier for each patient, regardless of the actual number of patients seen.
                              CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch.13, § 90.3.
                                 13 The three x-ray billing codes displayed accounted for approximately 53 percent of the

                              total amount that portable x-ray suppliers billed for covered x-rays in 2009.



    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   4
I   N T    R O        D   U      C T           I     O       N



                          TABLE 1
                          Payment Rates for Common Portable X-Ray Services

                                                                                     Billing                                                    2009 Payment
                          Service Description                                         Code                                           Modifier           Rate*
                          Chest x-ray; single view,                                                            Technical Component (TC)               $14.79
                                                                                     71010
                          frontal                                                                            Professional Component (26)              $ 9.02
                          Chest x-ray; two views,                                                                                    TC               $20.56
                                                                                     71020
                          frontal and lateral                                                                                         26              $11.18
                          Hip x-ray; complete,                                                                                       TC               $25.25
                                                                                     73510
                          minimum two views                                                                                           26              $10.82

                          Setup component                                           Q0092                                                   -         $16.23

                          Transportation component;
                                                                                    R0070                                                   -        $145.41
                          one patient
                                                                                                                              UN (2 patients)         $72.71
                                                                                                                              UP (3 patients)         $48.47
                          Transportation component;
                                                                                    R0075                                     UQ (4 patients)         $36.35
                          multiple patients
                                                                                                                              UR (5 patients)         $29.08
                                                                                                                      US (6 or more patients)         $24.24
                          Source: Medicare Physician Fee Schedule, 2009, and OIG analysis of 2009 Medicare National Claims History
                          Carrier Claims File, 2010.
                          *
                           The payment rates displayed for the x-rays and setup components are the physician fee schedule national
                          payment amounts for 2009. The payment rates displayed for the transportation component are the median
                          2009 allowed amounts.


                              Additional Background
                              This study was conducted as part of the Health Care Fraud
                              Prevention and Enforcement Action Team (HEAT) initiative, which
                              focuses on reducing health care fraud through the use of innovative
                              data analysis and enhanced cooperation between the Department of
                              Justice (DOJ), Department of Health and Human Services (HHS)
                              OIG, and CMS. 14



                              METHODOLOGY
                              To meet our objectives, we used the Medicare National Claims History
                              weekly carrier data (hereafter, Part B data); nursing home stay
                              information in the Minimum Data Set (MDS); and Medicare Skilled
                              Nursing Facility (SNF), Inpatient, Outpatient, Hospice, and Durable
                              Medical Equipment (DME) National Claims History Standard Analytic




                                14 DOJ and HHS, HEAT Task Force Success. Accessed at

                              http://www.stopmedicarefraud.gov/heatsuccess/index.html on January 19, 2011.



    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S                         5
I   N T    R O        D   U      C T           I     O       N


                              File data for services rendered in 2008 and 2009.15 We also used
                              National Plan and Provider Enumeration System (NPPES) data, which
                              link Medicare providers’ names, addresses, and other information to
                              their National Provider Identifiers (NPI), to identify the suppliers and
                              ordering entities reported on claims.
                              To focus on suppliers that regularly billed Medicare for portable x-ray
                              services, we used the following process to define our study population.
                              First, we identified all 2009 Part B claims billed with specialty code 63,
                              which identifies the service provider as a portable x-ray supplier. There
                              were 521 such suppliers in this set of claims. Next, we identified all
                              claims from these suppliers for covered x-rays by examining the billing
                              codes on the claims. We then identified all claims for the transportation
                              or setup components billed by the same supplier for the same
                              beneficiary on the same day as a covered x-ray. Lastly, we summarized
                              these transportation and setup component claims by supplier to
                              determine the amount that each supplier billed for these components for
                              a covered x-ray. We selected the 352 suppliers that billed at least
                              $1,000 for the transportation and setup components to be our
                              population.
                              We used the claims data to calculate eight characteristics that represent
                              questionable claims patterns for each supplier. Based on conversations
                              with CMS staff and OIG investigators, prior experience in other
                              payment areas, and our own professional judgment, we determined that
                              these characteristics may be associated with inappropriate Medicare
                              payments for portable x-rays. The characteristics generally reflected
                              situations that occurred rarely in the population, but, with one
                              exception (portable services ordered by nonphysicians), were not
                              necessarily inappropriate. Analysis of these characteristics are meant
                              to identify suppliers that merit greater scrutiny, not to provide
                              conclusive evidence of improper payments. The eight characteristics are
                              briefly described below; Appendix A provides a full description of all
                              characteristics and the process for selecting them.

                              o Portable services ordered by nonphysicians. This characteristic
                                  represents the percentage of each supplier’s charges for portable


                                  15 At the time we conducted our analysis, claims received through March 24, 2010, were

                              the most recent available. These claims represent approximately 98 percent of the total
                              payments made through December 2010 to portable x-ray suppliers for services rendered in
                              2009.



    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   6
I   N T    R O        D   U      C T           I     O       N


                                  services that was ordered by entities that lack MD or DO
                                  credentials. Federal regulations require that Medicare portable
                                  x-ray services be ordered by a licensed MD or a licensed DO.
                              o No recent contact between beneficiary and ordering provider. This
                                  characteristic represents the percentage of each supplier’s charges
                                  that was for a service when the beneficiary had not seen the
                                  ordering provider within 6 weeks prior to the service. By
                                  regulation, all diagnostic tests must be ordered by the physician
                                  treating the beneficiary and the results must be used by the
                                  ordering physician to treat a specific medical problem. 16 We expect
                                  that a claim for service from the ordering provider would generally
                                  precede the portable x-ray by a reasonably short period—we used
                                  6 weeks to be conservative. Additionally, prior OIG work has
                                  shown that apparent lack of contact between an ordering provider
                                  and the beneficiary may predict improper activity in other benefit
                                  areas.
                              o Same-day services in multiple settings. This characteristic
                                  represents the percentage of each supplier’s portable services that
                                  occurred on a day on which the beneficiary also had services in a
                                  clinical setting (e.g., office or hospital). Pursuant to Federal
                                  regulations, a beneficiary must have a specific need for portable
                                  services documented by the ordering physician.17 Logically, if the
                                  beneficiary received services in a clinical setting on a particular
                                  day, the need for portable services is less clear than if all services
                                  on that day were rendered at the beneficiary’s location. We
                                  excluded claims for services and items for which the beneficiary is
                                  not normally physically present at the place of service (e.g.,
                                  laboratory services) from this analysis.
                              o Billing for return trips. This characteristic represents the percentage
                                  of each supplier’s Medicare payments related to transportation
                                  component claims that appear to be billed for a trip to a facility
                                  already visited that day. While a supplier may legitimately make
                                  multiple trips to a facility, it is also financially advantageous for the
                                  supplier to see all beneficiaries at a location in a single trip, but bill
                                  as if it made a separate trip for each. Additionally, a supplier that



                                  16 42 CFR § 410.32.
                                  17 42 CFR § 486.106.




    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   7
I   N T    R O        D   U      C T           I     O       N


                                  submitted fictitious claims using fraudulently acquired beneficiary
                                  numbers might be unaware that the beneficiaries were collocated.
                              o Portable x-rays per beneficiary. This characteristic represents the
                                  average number of covered x-rays each supplier billed for its
                                  beneficiaries in 2009. Suppliers that submit an unusually large
                                  number of x-rays compared to the number submitted by their peers
                                  could be billing for medically unnecessary tests or services not
                                  rendered.
                              o Beneficiary contact with multiple portable suppliers. This
                                  characteristic represents the percentage of each supplier’s
                                  beneficiaries who also appeared on claims from another portable
                                  x-ray supplier in 2009. Preliminary data analysis showed that few
                                  beneficiaries received portable services from more than one
                                  supplier. Therefore, a large percentage with this characteristic may
                                  signify inappropriate patient sharing.
                              o Beneficiary use of stationary x-ray services. This characteristic
                                  represents the percentage of beneficiaries who received frequent
                                  x-rays from both portable x-ray suppliers and stationary providers
                                  in 2009. First, we identified the 10 covered x-ray codes most
                                  frequently billed by portable x-ray suppliers as a whole. These 10
                                  services accounted for 75 percent of the total allowed charges for
                                  x-rays from suppliers in our population in 2009. We then
                                  determined the percentage of each portable x-ray supplier’s
                                  beneficiaries for whom both the supplier and a stationary x-ray
                                  provider submitted a claim for any of these services. If a large
                                  percentage of a portable supplier’s beneficiaries also get stationary
                                  services, it may indicate that the supplier is billing for medically
                                  unnecessary services or services not rendered.
                              o Beneficiary DME utilization. This characteristic represents the
                                  average amount billed in 2009 for any DME item by any entity for
                                  each beneficiary of a portable x-ray supplier. DME is a frequently
                                  abused benefit, and if a supplier’s beneficiaries receive unusually
                                  large amounts of DME compared to those of other suppliers, it could
                                  indicate that the supplier is billing using compromised beneficiary
                                  numbers.
                              We used these eight characteristics to evaluate suppliers’ billing
                              patterns. First, we analyzed the distribution of each characteristic to
                              establish thresholds that signify questionable billing. Next, we
                              determined the number of characteristics on which each supplier

    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   8
I   N T    R O        D   U      C T           I     O       N


                              surpassed the related threshold. Then we combined the eight
                              characteristics to create a score for each supplier that we used to
                              compare suppliers’ overall patterns of questionable billing (referred to
                              hereinafter as the combined score). We analyzed the distribution of the
                              combined score to establish a “questionable” threshold in the same
                              manner as for the individual characteristics. Finally, to focus on the
                              suppliers most likely to be associated with inappropriate payments, we
                              set criteria to identify suppliers that exhibited questionable billing
                              patterns. To be selected, a supplier had to exceed thresholds for at least
                              two individual characteristics and the threshold on the combined score.
                              In addition to evaluating the supplier-level characteristics, we
                              conducted two related analyses of claims for portable x-ray services as
                              a whole to identify individual claims that may warrant further
                              review. First, we matched the Part B data to the NPPES data to
                              determine the credentials of the ordering provider on each claim and
                              then calculated the amount Medicare paid for services ordered by
                              nonphysicians. The methodology for this analysis was identical to
                              that for the characteristic “Portable services ordered by
                              nonphysicians,” except that we applied it to the entire set of claims
                              billed by suppliers in our population.
                              Second, we applied the methodology we used for the characteristic
                              “Billing for return trips” to claims from our entire population to
                              determine the total amount Medicare paid portable x-ray suppliers for
                              return trips. That is, we matched the Part B and MDS data to
                              identify the nursing facility, if any, where each beneficiary was
                              located on the day of the service.18 We then determined the number
                              of trips the supplier appeared to have made to each facility each day
                              based on the codes and modifiers used to bill for the transportation
                              component for beneficiaries located at that facility. For example, if a
                              supplier billed R0070 for two patients located in the same facility, we
                              determined the supplier made two trips to that facility. Then we
                              calculated the total amount Medicare paid for return trips to a
                              facility.




                                18 If the portable x-ray service fell on the first or last day of a nursing facility stay, we

                              considered the beneficiary to not be in a nursing facility that day.



    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   9
I   N T    R O        D   U      C T           I     O       N


                              Limitations
                              We did not independently verify the accuracy of the data we used for
                              this study; therefore, the accuracy of our findings is limited by the
                              accuracy of the data. With the exception of portable services ordered by
                              nonphysicians, none of the characteristics we analyzed necessarily
                              implies that a particular claim is inappropriate or that a particular
                              supplier submitted inappropriate claims. We designed this study to
                              identify suppliers that merit greater scrutiny, not to provide conclusive
                              evidence of improper payments.
                              A portion of our analysis focuses on the ordering NPIs reported on
                              claims submitted by portable x-ray suppliers. In an October 15, 2008,
                              program transmittal, CMS instructed suppliers to use their own NPIs
                              as the ordering NPIs on Medicare claims if they cannot determine the
                              NPIs of the ordering providers.19 Therefore, we cannot determine
                              whether claims that report the suppliers’ own NPIs in the ordering NPI
                              field represent services ordered by nonphysicians. Instead, we
                              specifically report on the incidence of suppliers’ using their own NPIs in
                              the ordering field in the findings. According to a CMS Transmittal,
                              Medicare contractors were to stop paying claims that lack a valid NPI
                              for the ordering provider on July 5, 2011.20 The transmittal also
                              indicated that the date was subject to change. CMS recently stated that
                              it anticipates implementing edits in early 2012 to stop payment for
                              claims that lack a valid NPI.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation approved by the Council of the Inspectors
                              General on Integrity and Efficiency.




                                  19 CMS,          Transmittal 270, Change Request 6093, October 15, 2008.
                                  20 CMS,          Transmittal 825, Change Request 6417, December 16, 2010.



    OEI-12-10-00190           Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   10
    F I N D I N G S

    Twenty portable x-ray suppliers exhibited            Most suppliers rarely billed for the
                questionable billing patterns            unusual situations described by the
                                                         characteristics in our methodology,
                  but 20 of the 352 in our population (5.7 percent) met our criteria for
                  identifying questionable billing patterns. That is, 20 suppliers exceeded
                  thresholds for questionable billing on at least 2 individual
                  characteristics and the threshold on the combined score, which
                  describes suppliers’ overall billing patterns. As shown in Table 2, 12 of
                  the 20 suppliers exceeded thresholds on 4 or
                                                                     Table 2 :
                  more characteristics. The characteristics on       Count of Suppliers That
                  which the 20 suppliers most often exceeded         Exceeded Exact Number
                                                                     of Thresholds for
                  thresholds were those that measured                Individual Characteristics
                  beneficiary use of stationary x-ray services       Number of           Supplier
                  (16 suppliers exceeded this threshold),            Thresholds            Count

                  same-day services in multiple settings                   2                 5
                                                                           3                 3
                  (16 suppliers), beneficiary contact with                 4                 4
                  multiple portable suppliers (15 suppliers),              5                 7
                  and beneficiary DME utilization                          6                 1
                  (13 suppliers). Collectively, Medicare paid      Source: OIG analysis of 2008 and

                  the selected suppliers approximately             2009 Medicare and NPPES data,
                                                                   2011.
                  $5.2 million for portable services rendered
                  in 2009. Appendix B provides for more information on how the supplier
                  population performed on each characteristic. Appendix C displays
                  detailed information about each of the 20 suppliers that met our criteria
                  for questionable billing.
                  The supplier with the most questionable billing pattern had the highest
                  combined score and exceeded thresholds on six individual
                  characteristics. Furthermore, the supplier ranked in the top 10 on the
                  following 4 characteristics:
                          •       Services ordered by nonphysicians accounted for 30 percent of
                                  the charges for portable services this supplier submitted,
                                  compared to the median value of 1.1 percent for suppliers in the
                                  population.
                          •       The supplier billed 53 percent of its portable services on a day
                                  when the beneficiary had a service in a clinical setting (median
                                  value 6 percent).
                          •       In addition, 55 percent of the supplier’s patients got services
                                  from at least one other portable x-ray supplier (median value
                                  9.9 percent).

OEI-12-10-00190   Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   11
F    I   N   D I       N G    S


                                     •       The supplier’s patients had an average of $7,970 billed on their
                                             behalf for DME in 2009 (median value $3,198).
                             As a group, the 20 suppliers who met our criteria had several additional
                             features that differentiated them from suppliers with more typical
                             billing patterns. First, only 9 percent of the payments to selected
                             suppliers were associated with services billed for beneficiaries in a
                             nursing facility at the time of service, compared to 73 percent of the
                             payments to other suppliers. Second, 13 of the selected suppliers were
                             located in the Miami, Florida, area, more than half the total
                             25 suppliers in our population with addresses there. All 13 Miami
                             suppliers surpassed thresholds on at least 3 characteristics, compared
                             to only 2 of the 7 suppliers from outside the Miami area that met our
                             criteria.



          Medicare paid portable x-ray suppliers                     Medicare paid suppliers
    approximately $12.8 million for return trips to                  approximately $108 million for
                                                                     transportation component claims
                                 nursing facilities
                                                                     for portable x-rays furnished in
                             2009 while the beneficiary was in a nursing home or SNFs, according to
                             MDS data. Approximately 12 percent of this amount, $12.8 million, was
                             for trips to a location apparently already visited on the same day. As a
                             typical example, one supplier submitted two separate claims for
                             transportation costs (R0070), one for each of two beneficiaries, on a
                             particular day. Medicare paid each claim at the full transportation
                             component rate. However, MDS data show that these two beneficiaries
                             were located in the same nursing home on that date. Claims data do
                             not provide sufficient information to determine whether the supplier
                             billed correctly for two separate trips to the facility or administered
                             tests to the two beneficiaries during a single trip and failed to use the
                             appropriate prorated billing code.



    Medicare paid at least $6.6 million for portable                 Contrary to 42 CFR § 486.106,
              x-ray services that were ordered by                    which requires that portable
                                                                     x-rays be ordered by an MD or
        nonphysicians and therefore not covered
                                                                     DO, Medicare paid $6.6 million
                             for portable x-ray services ordered by nonphysicians in 2009. Nurse
                             practitioners ordered services that accounted for $4.3 million of this
                             amount. Physician assistants and podiatrists ordered approximately
                             $1 million and $900,000, respectively. Various other medical

     OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   12
F   I   N   D I       N G    S


                            professionals, such as registered nurses and chiropractors, accounted for
                            the remaining $400,000.
                            Medicare paid an additional $5.9 million for services for which we could
                            not determine whether the ordering provider possessed appropriate
                            credentials. The ordering NPIs on claims that generated $1.2 million of
                            this amount did not match a current record in the NPPES data or
                            identified a group practice, not an individual practitioner. Additionally,
                            about $4.6 million of the $5.9 million for services went to suppliers that
                            reported their NPIs as the ordering NPIs on the claims.21 This amount
                            included $3.1 million that went to one supplier that reported its own
                            NPI on nearly 100 percent of its portable x-ray claims and $842,000 for
                            three suppliers that used their own NPIs on claims that accounted for at
                            least 20 percent of their Medicare payments.




                                21 Because of rounding, the sum of the paid amounts shown for the subcategories does
                            not equal the total paid amount shown for services for which we could not determine
                            whether the ordering providers possessed appropriate credentials.



    OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   13
   R E C O M M E N D A T I O N S

                  Portable x-rays constitute a small portion of overall Medicare payments
                  for diagnostic imaging services, but the questionable claims patterns we
                  found raise concerns about the integrity of payments to certain portable
                  x-ray suppliers. Furthermore, payments for portable services ordered
                  by nonphysicians clearly violate Federal regulations and should be
                  recovered. Lastly, payments for return trips to facilities, while not
                  necessarily inappropriate, may represent an additional opportunity for
                  program savings. Therefore, we recommend that CMS:
                  Take appropriate action on portable x-ray suppliers referred by the Office of
                  Inspector General
                  OIG is currently determining what, if any, OIG enforcement action it
                  should take on the 20 suppliers we identified with questionable billing
                  patterns and the 4 suppliers that derived more than 20 percent of their
                  Medicare payments from claims on which the suppliers reported their
                  own NPIs as the ordering NPIs. After we complete our internal process,
                  we will provide CMS (under separate cover) the identities of those
                  suppliers against which we believe it would be appropriate for CMS to
                  take administrative action.
                  Establish a process to periodically identify portable x-ray suppliers that
                  merit greater scrutiny and follow up as appropriate
                  Although our methodology cannot positively identify suppliers that have
                  received inappropriate Medicare payments, we identified some suppliers
                  with questionable claims patterns that merit greater scrutiny. CMS
                  should establish a process to identify portable x-ray suppliers that
                  present a likely risk to the program and refer them for appropriate
                  administrative or enforcement action. We leave the details of such a
                  process to CMS’s discretion, but as CMS has access to all the data
                  sources we used for our analysis, it could use the methodology in this
                  report as a guide. Given the preponderance of Miami suppliers among
                  those we identified with questionable billing, CMS may initially wish to
                  focus on Miami and later expand to other high-risk jurisdictions.
                  Determine what portion of the $12.8 million it paid for return trips in
                  2009 actually reimbursed suppliers for incorrectly billed transportation
                  component claims and collect overpayments where appropriate
                  Medicare paid portable x-ray suppliers $12.8 million for apparent
                  return trips to nursing facilities in 2009, but some portion of this
                  amount may be attributable to incorrectly billed transportation
                  component claims. That is, the supplier may have obtained excess
                  reimbursement by billing as if it made multiple trips to a facility when,


OEI-12-10-00190   Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   14
R   E C     O    M    M   E     N D           A T           I     O       N      S


                          in fact, it saw all beneficiaries located in that facility in a single trip.
                          CMS should instruct its contractors to conduct a focused medical review
                          on a sample of these claims to identify any overpayments and determine
                          the extent of errors of this type. Depending on the results of this
                          preliminary review, CMS may wish to initiate more extensive reviews of
                          such claims on a regular basis. CMS should also recover any
                          overpayments discovered in the preliminary or more extensive review
                          (if conducted).
                          Collect the $6.6 million in overpayments for portable x-ray services rendered
                          in 2009 that were ordered by nonphysicians
                          Federal regulations at 42 CFR §§ 410.32(a) and 486.106 clearly state
                          that portable x-ray services must be ordered by an MD or a DO to be
                          eligible for Medicare reimbursement. Therefore, CMS should instruct
                          its contractors to collect overpayments on the $6.6 million paid for
                          portable x-ray services ordered by nonphysicians. Under separate
                          cover, we will provide CMS the information needed to identify these
                          claims.
                          Implement procedures to ensure that it pays for portable x-ray services only
                          when ordered by a physician and establish appropriate controls
                          CMS should weigh the costs and benefits of prepayment and
                          postpayment controls to ensure that portable x-ray services meet the
                          requirement established in 42 CFR §§ 410.32(a) and 486.106 concerning
                          the credentials of the ordering provider. Depending on the results of the
                          analysis, CMS could instruct its contractors to verify that the ordering
                          NPI on each claim for portable x-ray services identifies an MD or a DO
                          before paying the claim. Alternatively, CMS could instruct its
                          contractors to periodically review paid portable x-ray claims to verify
                          the credentials of the ordering providers and collect overpayments
                          where appropriate. CMS may explore other options at its discretion.
                          As part of its response to this recommendation, CMS should fully
                          implement the requirement, though not specific to portable x-ray
                          services, that claims for services requiring the supplier to report an
                          ordering provider bear the correct NPI of that ordering provider. This
                          action should eliminate payments for services for which the credentials




    OEI-12-10-00190       Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   15
R   E C     O    M    M   E     N D           A T           I     O       N      S


                          of the ordering entity cannot be determined (for which CMS paid $5.9
                          million in 2009). OIG made a similar recommendation in a February
                          2009 report. 22


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our recommendations. CMS stated that since the
                          draft report was issued, it has embarked on a new Fraud Prevention
                          System to help identify suspect fee-for-service claims, including the kinds
                          of questionable billing described in this report. CMS also stated that it is
                          leveraging internal data and publicly available information to strengthen
                          its provider-screening process which will help keep portable x-ray
                          providers that have exhibited suspicious or fraudulent behaviors from
                          reenrolling in Medicare. CMS further indicated that it is revising the
                          Medicare Benefit Policy Manual to be consistent with the regulations that
                          would preclude Medicare from paying for portable x-ray services that are
                          not ordered by an MD or a DO.
                          Specifically, in response to our first recommendation, CMS concurred and
                          stated that after it receives and reviews the necessary information about
                          the suppliers and claims discussed in this report, it will take the
                          appropriate administrative action.
                          In response to our second recommendation, CMS concurred and stated
                          that it implemented a new Fraud Prevention System to detect potential
                          fraud and abuse by suppliers of portable x-ray services. CMS also stated
                          that it will perform periodic analyses on suppliers and will explore
                          opportunities to build reliable models that can detect and generate alerts
                          for suspicious activity.
                          In response to our third recommendation, CMS concurred but stated that
                          because of limited resources and timing, it cannot initiate a review of a
                          sample of portable x-ray claims at this time. Instead, CMS stated that it
                          would forward the list of questionable claims to the appropriate
                          contractor for further consideration.
                          In response to our fourth recommendation, CMS concurred and stated
                          that it plans to recover the $6.6 million in overpayments identified.



                            22 OIG, Medicare Payments in 2007 for Medical Equipment and Supply Claims With

                          Invalid or Inactive Referring Physician Identifiers, OEI-04-08-00470.



    OEI-12-10-00190       Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   16
                  In response to our fifth recommendation, CMS concurred and stated it is
                  revising the Medicare Benefit Policy Manual to be consistent with the
                  regulations that would preclude Medicare from paying portable x-rays
                  that are not ordered by an MD or a DO.
                  For the full text of CMS’s comments, see Appendix D.




OEI-12-10-00190   Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   17
   A P P E N D I X                                ~            A

                  Detailed Methodology for Evaluating Questionable Claims Patterns
                  Our first step in evaluating the billing patterns of portable x-ray
                  suppliers was to identify potential indicators of inappropriate payments.
                  Based on conversations with Centers for Medicare & Medicaid Services
                  staff and Office of Inspector General investigators, prior experience in
                  other payment areas, and our own professional judgment, we developed
                  an initial set of 16 indicators that could potentially meet this goal.
                  These indicators were based either on characteristics of individual
                  claims (e.g., the percentage of portable services ordered by
                  nonphysicians) or on the claims histories of beneficiaries (e.g., the
                  average number of portable imaging services per beneficiary).
                  After identifying the initial set of potential indicators, we then
                  calculated each indicator for each supplier and examined the
                  distribution of values across suppliers. If a distribution showed that
                  most suppliers had relatively low values for an indicator, but a small
                  number had distinctly higher values, we determined that, for this
                  indicator, a supplier’s deviation from the population was likely to be
                  meaningful. Eight indicators met this criterion; these became the eight
                  characteristics we chose to represent questionable billing patterns of
                  suppliers. The specific methodologies we used to calculate each of the
                  eight characteristics are described below.
                  o       Portable services ordered by nonphysicians. We first matched the
                          ordering National Provider Identifier (NPI) on each claim to
                          National Plan and Provider Enumeration System (NPPES) data to
                          identify the ordering provider. We then used two data elements
                          from the NPPES—the primary taxonomy code (a self-selected code
                          that captures the provider’s primary area of expertise) and the
                          credentials—to determine whether the entity was a licensed
                          physician. If the entity’s primary taxonomy code corresponded to a
                          physician specialty or the entity listed medical doctor (MD) or doctor
                          of osteopathy (DO) credentials, we considered the ordering provider
                          to be a physician. Failing that, if the primary taxonomy code
                          indicated that the ordering provider was a group practice, the
                          ordering NPI did not match a record in the NPPES or was missing,
                          or the supplier reported its own NPI in the ordering field, we
                          considered the credentials of the entity to be unknowable.
                          Otherwise, we considered the ordering provider to be a
                          nonphysician. We verified that a random sample of 10 nonphysician
                          ordering entities identified through this process did not hold MD or
                          DO credentials by searching State medical licensure Web sites by

OEI-12-10-00190   Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   18
A   P P     E   N     D I       X           ~           A


                                    the name and State of the entity. We then calculated the percentage
                                    of each supplier’s submitted charges that were derived from claims
                                    ordered by nonphysicians. We limited this analysis to claims for
                                    services rendered on the same day and for the same beneficiary as a
                                    claim for the transportation or setup component to ensure that we
                                    included only services subject to 42 CFR § 486.106, which requires
                                    that portable services be ordered by a physician.
                            o       No recent contact between beneficiary and ordering provider. We first
                                    excluded claims on which the suppliers reported their own NPIs as
                                    the ordering NPI. We then identified each unique combination of
                                    beneficiary, ordering provider, and service date among claims
                                    submitted by portable x-ray suppliers in our population. We then
                                    determined whether the ordering NPI appeared as the performing,
                                    attending, operating, or other NPI on a claim for Part B, Skilled
                                    Nursing Facility (SNF), Inpatient, Outpatient, or Hospice claim with
                                    a service date 6 weeks or less prior to the portable x-ray service. If
                                    so, we determined that the beneficiary and ordering provider had
                                    had recent contact. Otherwise, we determined that the two did not
                                    have recent contact. We then calculated the percentage of each
                                    supplier’s charges submitted for claims with no evidence of recent
                                    contact between the beneficiary and ordering provider.
                            o       Same-day services in multiple settings. We first created a dataset
                                    with 2009 Part B claims for all beneficiaries in our population. We
                                    excluded claims for transportation services, tangible goods (e.g.,
                                    parenteral nutrition supplies), pathology and laboratory services,
                                    the professional component of diagnostic services, and other services
                                    and items for which the beneficiary is not normally present at the
                                    place of service. We then examined the place of service code on the
                                    claim to identify the setting in which the service was rendered. If
                                    the place of service code corresponded to a physician’s office,
                                    hospital, or medical clinic, we considered the setting to be clinical. If
                                    the code corresponded to a homeless shelter, private home, nursing
                                    facility, hospice, or a residential treatment facility, we considered
                                    the setting to be residential. If the beneficiary had a portable x-ray
                                    service in a residential setting on the same day as another service in
                                    a clinical setting, we determined that the beneficiary had services in
                                    multiple settings that day. We then calculated the percentage of
                                    each supplier’s beneficiary-service day combinations for which the
                                    beneficiary had services in multiple settings.


    OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   19
A   P P     E   N     D I       X           ~           A


                            o       Billing for return trips. We matched our portable x-ray claims
                                    population to the Minimum Data Set and SNF stay data by
                                    beneficiary number and date to identify the facility, if any, where
                                    the beneficiary was located on the day of each transportation
                                    component service. If the transportation component service fell on
                                    the first or last day of a nursing facility stay, we considered the
                                    beneficiary to not be in a facility. Otherwise, we considered the
                                    beneficiary to be in the facility identified in the stay data. We then
                                    grouped the transportation component claims that each supplier
                                    submitted for beneficiaries in each facility into trips according to the
                                    billing code on the claim. For instance, if a supplier submitted two
                                    claims with the two-patient transportation component code and one
                                    with the one-patient code for three beneficiaries located in the same
                                    facility on a certain day, we would group these claims into two trips.
                                    We then assigned an order to the trips according to the amount
                                    Medicare paid for each, with the trip for which Medicare paid the
                                    most as the “first” trip. Lastly, we determined the percentage of
                                    each supplier’s total Medicare payments derived from transportation
                                    component claims for any trip beyond the first to a facility.
                            o       Portable x-rays per beneficiary. We calculated the total number of
                                    covered x-rays billed by each portable x-ray supplier in 2009,
                                    excluding any tests for which the supplier billed only the
                                    professional component. We then divided this total by the number
                                    of beneficiaries for whom each supplier submitted a claim to get the
                                    average number of portable x-rays per beneficiary for each supplier.
                            o       Beneficiary contact with multiple portable suppliers. We counted the
                                    number of distinct portable x-ray suppliers that submitted a claim
                                    for each beneficiary in our population dataset. We then determined
                                    the percentage of each supplier’s beneficiaries that had claims from
                                    at least two portable suppliers in 2009.
                            o       Beneficiary use of stationary x-ray services. First, we identified the
                                    10 billing codes for covered x-rays most commonly billed by portable
                                    x-ray suppliers in our population, weighted by allowed charges.
                                    These 10 codes constituted approximately 75 percent of the total
                                    allowed charges for x-rays in our population. We then created a
                                    dataset containing all Part B claims for these codes for beneficiaries
                                    in our population, regardless of the specialty of the performing
                                    provider. Finally, we calculated the percentage of each portable



    OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   20
A   P P     E   N     D I       X           ~           A


                                    supplier’s beneficiaries who also appeared on a claim for one of the
                                    codes from a stationary provider during 2009.
                            o       Beneficiary Durable Medical Equipment (DME) utilization. From the
                                    2009 DME claims data, we calculated the amount billed for any
                                    DME item on behalf of each beneficiary in our population. We then
                                    calculated the average amount of billed charges for DME per
                                    beneficiary who had at least one DME claim for each supplier in our
                                    population.
                            After selecting the characteristics to use for our supplier profiles, we
                            calculated thresholds for each characteristic to define questionable
                            billing. If the distribution of the characteristic was exponential, we set
                            the threshold at the 90th percentile of the characteristic. Otherwise, we
                            set the threshold at a value where, after removing suppliers above the
                            threshold, the remaining values formed an approximately normal
                            distribution.
                            We then combined the eight characteristics into an overall score, which
                            we called the combined score. We first determined the maximum value
                            for each characteristic among the suppliers in our population. We then
                            divided each supplier’s value for each characteristic by the maximum
                            value for that characteristic to create a normalized score on a zero to
                            one scale for each characteristic. We then summed the normalized
                            values for each characteristic to create the combined score. We
                            determined the threshold for the combined score in the same manner as
                            for the individual characteristics. Appendix B shows the median and
                            maximum values for each characteristic and the combined score as well
                            as the corresponding thresholds and the number of suppliers that
                            exceeded each threshold.
                            For example, the top supplier in our population had a value of 5.125 for
                            the characteristic “Portable x-rays per beneficiary.” Therefore, we
                            divided each supplier’s value for that characteristic by 5.125 to get each
                            supplier’s normalized score. The top supplier had a normalized score of
                            5.125 divided by 5.125, or 1. Meanwhile, the supplier with the
                            minimum value on that characteristic, 0.4444, had a normalized score of
                            0.4444 divided by 5.125, which is 0.0867. We performed this operation
                            for each characteristic and then summed the normalized scores into the
                            single combined score for each supplier.




    OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   21
   A P P E N D I X                                       ~             B

                         Distributions of Characteristics and Combined Score With Related
                         Thresholds


                                                                                                Median               Maximum                        Suppliers
                                                                                               Supplier               Supplier                     Exceeding
          Characteristic                                                       Detail            Value                  Value          Threshold   Threshold
          Portable services                    Amount billed for claims                           1.09%                   95.6%           14.1%           35
          ordered by                               with characteristic as
          nonphysicians                               percentage of total
                                                     charges for portable
                                                    services per supplier
          No recent contact                    Amount billed for claims                           30.7%                    100%           55.0%           27
          between beneficiary                      with characteristic as
          and ordering provider                       percentage of total
                                                    charges per supplier
          Same-day services in                         Service days with                          6.04%                   80.7%          11.78%           35
          multiple settings                              characteristic as
                                                      percentage of total
                                              service days per supplier
          Billing for return trips                         Transportation                         4.55%                   35.4%           11.4%           35
                                                  component payments
                                                 associated with return
                                                  trips as percentage of
                                                      total payments per
                                                                  supplier
          Portable x-rays per                            Mean number of                              2.11                       5.13        3.00          10
          beneficiary                                 portable x-rays per
                                                beneficiary per supplier
          Beneficiary contact                        Percentage of each                           9.88%                    100%           30.7%           35
          with multiple portable                supplier’s beneficiaries
          suppliers                              that received services
                                                        from at least one
                                               additional portable x-ray
                                                                  supplier
          Beneficiary use of                         Percentage of each                           11.1%                   90.0%           20.8%           40
          stationary x-ray                      supplier’s beneficiaries
          services                            that also received similar
                                                          services from a
                                               stationary x-ray provider
          Beneficiary durable                   Mean charges for DME                             $3,198                  $8,732          $5,200           32
          medical equipment                           per beneficiary per
          (DME) utilization                                       supplier
          Combined score                                                 -                           1.66                       3.73        2.37          22

          Source: Office of Inspector General analysis of 2008 and 2009 Medicare and National Plan and Provider
          Enumeration System data, 2011.




OEI-12-10-00190          Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S                             22
                       A P P E N D I X                                   ~            C

           Billing Patterns of the 20 Selected Suppliers
                                                                                                                   Characteristic
                                          No recent                                                                                                                                                              Medicare
                                          contact                                                                                                     Beneficiary                                                payments
                         Portable         between                    Same-day                                                                         contact with   Beneficiary                    Combined     for portable
                         services         beneficiary                services in                                                 Portable x-          multiple       use of           Beneficiary   score        x-rays
                         ordered by       and ordering               multiple                        Billing for                 rays per             portable       stationary       DME           (Threshold   rendered in
Supplier    Location     nonphysicians    provider                   settings                        return trips                beneficiary          suppliers      x-ray services   utilization   =2.37)       2009
   A         Miami             X                  X                             X                              -                            -               X              X                X          3.73       $255,749
   B         Miami              -                 X                             X                              -                            -               X              X                X          3.28       $482,711
   C         Miami              -                 X                             X                              -                            -               X              X                X          3.40       $407,910
   D         Miami              -                 X                             X                              -                            -               X              X                X          3.16       $335,339
   E         Miami              -                 X                             X                              -                            -               X              X                X          3.07       $136,788
   F         Miami              -                 X                             X                              -                           X                X              X                -          2.97       $176,238
   G         Miami             X                   -                            X                              -                            -               X              X                X          3.62        $23,201
   H         Other              -                 X                             -                              -                           X                X              X                X          3.69         $3,955
   I         Miami              -                  -                            X                              -                            -               X              X                X          2.66       $592,970
   J         Miami              -                  -                            X                              -                            -               X              X                X          2.90       $407,114
   K         Miami              -                  -                            X                              -                            -               X              X                X          2.84       $224,860
   L         Other             X                  X                             X                              -                            -               -              -                X          3.30        $42,025
   M         Miami              -                  -                            X                              -                            -               X              X                -          2.39       $236,617
   N         Miami              -                  -                            X                              -                            -               X              X                -          2.62        $53,462
   O         Miami              -                  -                            -                              -                            -               X              X                X          2.61       $833,541
   P         Other              -                  -                            X                              X                            -               -              -                -          2.44       $519,355
   Q         Other              -                  -                            X                              -                            -               -              X                -          2.41       $226,036
   R         Other              -                  -                            X                              -                            -               -              -                X          2.37       $145,410
   S         Other              -                  -                            -                              X                           X                -              -                -          3.06        $85,456
   T         Other              -                  -                            -                              -                            -               X              X                -          2.56         $2,428

 Total                          3                 8                            16                              2                           3               15             16                13           -       $5.2 million
                     Source: Office of Inspector General analysis of 2008 and 2009 Medicare and National Plan and Provider Enumeration System data, 2011.




                 OEI-12-10-00190               Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S                                                                  23
    A P PEN D                         x        D



    Agency Comments




     ("....   '~     DEPAR1MENT OF HEALTH & HUMAN SERVICES                                     Centers for Medicare & Medicaid Services

     \~:5~                                                                                     Administrator
                                                                                               Washington. DC 20201




                  DATE:          AUG 0 4 2Dll
                  TO:            Daniel R. Levinson
                                 Inspector General
                                                               /S/
                   FROM:         Donald M. Berwick, M.D.
                                 Administrator

                   SUBJECT:      Office of Inspector General (OIG) Draft Report: "Questionable Billing Patterns
                                 of Portable X-Ray Suppliers" (OEI-12-10-00190)


                   The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                   comment on the OIG draft report entitled "Questionable Billing Patterns of Portable X-Ray
                   Suppliers," (OEI-12-10-00190). The purpose of this report is two-fold. First, it seeks to identify
                   portable x-ray suppliers with questionable billing patterns that may be associated with
                   inappropriate Medicare payments. Secondly, it seeks to identify claims for portable x-ray
                   services that may warrant further review.

                   Portable x-ray suppliers provide diagnostic imaging services at patients' locations such as private
                   homes and group living facilities, rather than in a traditional clinical setting, such as a doctor's
                   office or hospital. As stated in the report portable x-rays constitute eight percent of the amount
                   Medicare paid to portable suppliers in 2009 reimbursed them for transporting and setting up the
                   equipment. According to the OIO's report, Medicare paid approximately $225 million under the
                   Part B benefit in 2009 for x-rays of the extremities, pelvis, spine, skull, chest, and abdomen.
                   However, we recognize that such questionable billing patterns raise legitimate concerns about
                   potentially inappropriate Medicare payments and appreciate the OIG bringing this issue to our
                   attention. Since the report was issued, CMS has embarked on a new fraud prevention initiative
                   which will help eMS identify suspect fee-for-service claims, including the kinds of questionable
                   billing described in this report.

                   Launched on June 30, 2011, the eMS's new Fraud Prevention System (FPS) reviews every fee­
                   for-service claim, including those submitted by portable x-ray suppliers, to identify claims and
                   providers that merit greater scrutiny. The new system alerts eMS to unusual billing patterns and
                   other suspicious behavior while simultaneously prioritizing claims so eMS can strategically
                   target resources for additional review, investigation, and administrative action as necessary.
                   eMS is now able to review claims, investigate providers, make referrals to law enforcement, and
                   take administrative actions against providers more efficiently than before. eMS will perform
                   analyses on portable x-ray suppliers and will explore opportunities to build reliable models that
                   can detect and generate alerts for suspicious portable x-ray activity.




OEI·12·10·00190          QUESTIONABLE BILLING PATTERNS OF PORTABLE X·RAY SUPPLIERS                                                  24
A   P P     E   N     D I      X            ~           D




    OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   25
A   P P     E   N     D I      X            ~           D




    OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   26
A   P P     E   N     D I      X            ~           D




    OEI-12-10-00190         Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   27
   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Dave Graf, Director,
                  Technical Support Staff, in the Baltimore office.
                  Scott Hutchison served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff who contributed to
                  the report include Berivan Demir Neubert, Rita Wurm, Scott Horning,
                  and Robert Gibbons.




OEI-12-10-00190   Q U E S T I O N A B L E B I L L I N G PAT T E R N S   OF   P O R TA B L E X - R AY S U P P L I E R S   28
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
